                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A09030014                                                                      Page 1 of 1



                 Our investigation determined that the Subject 1 recklessly plagiarized in proposals
         submitted to NSF. NSF made a finding of research misconduct by the Subject; sent a letter of
         reprimand to the Subject; required the Subject to submit certifications to the Assistant Inspector
         General for Investigations (AlGI) ofNSF OIG for two years; prohibited the Subject from serving
         as a reviewer of NSF proposals for two years; and required the Subject to provide certification to
         the AlGI that he has completed a course on the responsible conduct of research.

                This memo, the attached Report of Investigation, the letter from NSF with a finding of
         research misconduct, and the Director's decision in the Subject's appeal, constitute the case
         closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
.,   f




                                           NATIONAL SCIENCE FOUNDATION
                                                4201 WILSON BOULEVARD
                                               ARLINGTON, VIRGINIA 22230



                                                   ocr 1 s 2011
               OFFICE OF THE
                 DIRECTOR




         CERTIFIED MAIL --RETURN RECEIPT REQUESTED




                 Re:     Notice of Research Misconduct Determination


         Dear-
               Between 2006 and 2009,
         Foundation




         As documented in the attached Investigative Report prepared by NSF's Office of Inspector
         General ("OIG"), these proposals contained plagiarized text.

         Research Misconduct and Proposed Sanctions
                 Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
         or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1 (a). NSF
         defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
         without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
         requires that:

                (1) There be a significant departure from accepted practices of the relevant research
                    community; and
                (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
                (3) The allegation be proven by a preponderance of evidence.

         45 CFR § 689.2(c).
'i



                                                                                                   Page2
             Your proposals contained verbatim and paraphrased text, copied from multiple source
     documents. By submitting proposals to NSF that copied the ideas or words of another without
     adequate attribution, as described in the OIG Investigative Report, you misrepresented someone
     else's work as your own. Your conduct unquestionably constitutes plagiarism. I therefore
     conclude that your actions meet the definition of"research misconduct" set forth in NSF's
     regulations.

             Pursuant to NSF regulations, the Foundation must also determine whether to make a
     finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
     reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
     evidence, your plagiarism was committed recklessly and constituted a significant departure from
     accepted practices of the relevant research community. I am, therefore, issuing a finding of
     research misconduct against you.

              NSF's regulations establish three categories of actions (Group I, II, and Ill) that can be
     taken in response to a fmding of misconduct. 45 CFR § 689.3(a). Group I actions include
     issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
     NSF; requiring that an institution or individual obtain special prior approval of particular
     activities from NSF; and requiring that an institutional representative certify as to the accuracy of
     reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l).
     Group II actions include award suspension or restrictions on designated activities or
     expenditures; requiring special reviews of requests for funding; and requiring correction to the
     research record. 45 CPR§ 689.3(a)(2). Group III actions include suspension or termination of
     awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
     or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

             In determining the severity of the sanction to impose for research misconduct, I have
     considered the seriousness of the misconduct, and our determination that it was committed
     recklessly. I have also considered the fact that your misconduct was part of a pattern of
     misconduct, and had no imp'act on the research record, as well as other relevant circumstances.
     45 CPR§ 689.3(b).

            After assessing the relevant facts and circumstances of this case, I am taking the
     following actions against you:

            (1) Until October 1, 2013, you must provide certifications to the OIG that any proposal or
                report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
                fabricated material;

            (2) By October 1, 2012, you must attend a training course in the responsible conduct of
                research, and provide a certificate of attendance to the OIG that you have completed
                such a course; and

            (3) Until October 1, 2013, you are prohibited from serving as a merit reviewer for NSF.
                                                                                           Page 3
       The certifications and certificate of attendance should be submitted in writing to OIG,
Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia
22230.



Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt ofthis letter to submit an appeal
ofthis decision, in writing, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any appeal
should. be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please c a l l - Assistant General Counsel, at (703)
292-5054.



                                                    Sincerely,




                                                    Wanda Ward
                                                    Senior Advisor to the Director




Enclosures
- Investigative Report
- 45 C.F.R. Part 689
                                 NATIONAl SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230

                                         JAI'-l   5 2Ul2


      OFFICE OF THE
        DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Decision on Appeal of Research Misconduct Determination

Dear-

On October 18, 2011, Dr. Wanda Ward, Senior Advisor to the Director, issued a Notice of
Research Misconduct Determination ("Notice") against you. In this Notice, NSF: (1) required
that, until October 1, 2013, you submit certifications in connection with any proposals or reports
you submit to NSF; (2) prohibited you from serving as a peer reviewer of NSF proposals until
October 1, 2013; and (3) mandated that, no later than October 1, 2012, you complete a course on
the responsible conduct of research. On November 17, 2011, in accordance with the applicable
regulations, you appealed the finding of research misconduct made against you. This letter
constitutes my decision on your appeal.

In your appeal, you do not contest NSF's conclusion that you committed research misconduct.
In addition, you accept NSF's decision requiring that you submit certifications for the next two
years, as well as its decision prohibiting you from serving as a merit reviewer for that same
timeframe.

You do, however, make two
upcoming panel for NSF'
program. You indicate that NSF has already extended an invitation to you to serve as a panelist
in connection with this program. You also note that you have a high level of interest in t h e -
program because of the significant impact that the program will have with respect to institutions
in developing countries. Second, you request that NSF rescind the requirement that you take a
training course. You explained that, prior to your tenure as a department chair and college dean,
you taught a course that covered the responsible use of scientific information, including a
discussion on plagiarism. Thus, you suggest that it is not necessary for you to take a training
course on these topics.
                                                                                              Page 2
After giving careful consideration to your arguments, I have decided to deny your appeal.
Although NSF very much appreciates your interest and passion for the-program, I am not
persuaded that there is sufficient justification to permit you to participate as a panelist.
In addition, I do not believe that the training requirement imposed upon you by NSF should be
rescinded. This requirement is consistent with the requirement imposed on all other individuals
who are found to have committed plagiarism in connection with NSF-funded work. Moreover,
even if the information conveyed during the training session is not new to you, it will
undoubtedly serve as a good reminder of the necessary steps to take to ensure compliance with
the applicable standards. Therefore, this requirement remains in effect.

Lastly, I note that, in your appeal, you also request that NSF rescind the requirement that your
current employer provide assurances to accompany any proposals or reports that you submit to
NSF. NSF did not impose such a requirement upon you in its Notice. Thus, there is no need for
NSF to take any action on this request.

As outlined in NSF's October 18, 2011 Notice, and in light of my decision on your appeal, the
following actions remain in place against you:

    (1)    Until October 1, 2013, you must provide certifications to the OIG that any proposal or
           report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material;

    (2)    By October 1, 2012, you must attend a training course in the responsible conduct of
           research, and provide a certificate of attendance to the OIG that you have completed
           such a course; and

    (3)    Until October 1, 2013, you are prohibited from serving as a merit reviewer for NSF.


This is NSF's final administrative action in this case. There is no further right of appeal as to
NSF's imposition of the administrative actions referenced in this letter. Ifyou have any
questions about the foregoing, please call Lawrence Rudolph, General Counsel, at (703) 292-
8060.                                               .




                                                      Sincerely,




                                                      Subra Suresh
                                                      Director
      National Science Foundation
       Office of Inspector General


                                    ~  .~·· ..

                                   :NSF.:
                                    •
                                        •..       ~
                                                      «



                     Confidential
               .Report of Investigation
               Case Number A09030014
                               25 May 2011
                This Confidential Report of Investigation is provided to you
                                 FOR OFFICIAL USE ONLY.
It contains protected personal information, the unauthorized disclosure of which may result in
personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
disclosed within NSF only to individuals who must have knowledge of its contents to
facilitate NSF's assessment and resolution of this matter. This report may be disclosed
outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
552a. Please take appropriate precautions handling this confidential report of investigation.
CONFIDENTIAL                                                                      CONFIDENTIAL



                                      Executive Summary

OIG's inquiry revealed that:

   •   approximately 90 lines of text copied from 5 publications and 4 web sources appeared in
       the Subject's NSF proposal.

University's investigation concluded that:

   •   the Subject acted carelessly in including copied text in an NSF proposal;
   •   the Subject's acts were plagiarism, and the Subject was responsible for the plagiarism;
       and
   •   the Subject did not commit academic misconduct.

OIG's investigation established that:

   •   the Subject copied approximately 135 lines of text into 3 NSF proposals.

OIG concludes that:

   •   Act: The Subject plagiarized approximately 135 lines of text into 3 NSF proposals.
   •   Intent: The Subject acted recklessly.
   •   Standard of Proof: A preponderance of the evidence supports the conclusion that the
       Subject's acts were a significant departure from accepted practices, and therefore
       constitute research misconduct.

OIG recommends that NSF:

   •   Make a finding of research misconduct against the Subject;
   •   Send a letter of reprimand to the Subject;
   •   Require that the Subject submit certifications to AlGI, NSF OIG for two years that any
       submissions to NSF do not contain falsified, fabricated, or plagiarized material;
   •   Require that the Subject's employer submit assurances to AlGI, NSF OIG for two years
       that any submissions to NSF do not contain falsified, fabricated, or plagiarized material;
   •   Prohibit the Subject from serving as a merit reviewer of NSF proposals for two years; and
   •   Require the Subject to provide certification to NSF OIG of attendance at a course in
       responsible conduct of research within 1 year of the finding of research misconduct.




                                                                                                 2
CONFIDENTIAL                                                                                  CONFIDENTIAL


                                                   OIG's Inquiry

        We assessed an allegation that the Subject's 1 NSF proposaf contained plagiarized text.
Our review showed that the proposal contained approximately 90 lines of unattributed text
copied from nine potential sources. We wrote the Subject (Tab 1). He replied (Tab 2) that his
laboratory manager 3 provided all of the text in question. Although the laboratory manager is not
named in the proposal as coPI, or as an author, the proposal included the manager's biographical
sketch, and the proposal sought funds to support part of his salary. The Subject's reply did not
dispel the allegation, and we referred an investigation to the Subject's University 4 (Tab 3).

                                            University's Investigation

       Pursuant to its policy, the University appointed an investigation committee (IC) to
conduct the investigation. We received a copy of the IC report (Tab 4). The IC considered
materials provided to the University by OIG, examined other proposals and publications of the
Subject, and interviewed the lab manager and the Subject.

        In his interview with the IC, the lab manager confirmed 5 that he prepared material as
directed by the Subject, and this included the unattributed copied text in Proposal A. He stated
that he copied most of the text from web sources. The lab manager claimed that the copied
material would be difficult to paraphrase. 6 He also stated that he did not know that the material
was to be added to an NSF proposal, did not review the proposal before submission, and did not
know that it had been submitted. 7

        In his interview with the IC, the Subject stated 8 that he had asked the lab manager for
draft background material, with the specific intention to use it in the NSF proposal. He stated
that he noticed a missing citation in the material provided, and asked the lab manager for it.
Although the citation was then provided to him, he likely "just forgot" to include it in the
proposal. 9 The Subject stated that he believed the lab manager made a mistake in preparing the




5
  A summary of the IC interview with the lab manager is included at Tab 4.
6
  The IC did not ask why this might be so, and, offered no assessment of whether the lab manager's assertion was
accurate.
7
  As noted, the unattributed copi~d in two proposals submitted to NSF. Proposal A was a
resubmission of earlier p r o p o s a l - -
s A summary of the IC interview with the Subject is included at Tab 4.
9
  Subject interview, IC report, attachment 6, page 1 (Tab 4).



                                                                                                              3
CONFIDENTIAL                                                                                        CONFIDENTIAL


draft materials included in the proposal, and that the lab manager may not have a proper
understanding of plagiarism. 10

        The cover letter to the IC report stated that "since [the lab manager] was not listed as a
contributor to the proposal and he did not participate in the preparation or submission of the
proposal, that he should not be charged with plagiarism. The University will take no further
action against [the lab manager]." 11 However, within the report and the summary notes ofthe
IC's interviews, the investigation clearly established that the lab manager prepared materials
used in the proposal at the request ofthe Subject, and that these materials contained plagiarized
text.

       NSF guidelines for proposal preparation state (NSF Grant Proposal Guide, page 1-3):
"Authors other than the PI (or any co-PI) should be named and acknowledged." We wrote the
University and asked for further clarification regarding the lab manager's contributions to the
proposal. 12 The University responded:

        ... the committee's assessment was that based on community standards for
        authorship, the material [the lab manager] provided to the [Subject] did not
        represent any type of intellectual contribution normally considered sufficient to
        merit recognition of authorship. Furthermore, our non-conflicted experts in the
        relevant disciplines were unequivocal in their judgment that the text compiled by
        [the lab manager] did not provide the basis for any of the scientific or intellectual
        propositions contained in the proposal.l 131

The University response did not address why the lab manager was not listed as an author of
Proposal A. In our letter, we also asked the University to clarify the extent ofthe lab manager's
contributions to the proposal. The University responded that the lab manager provided about
20% of the proposal text, but again emphasized that that background information "did not
provide the basis for the scientific or intellectual propositions contained in the proposal." 14

        The IC concluded that copied text appeared in the Subject's Proposal A without proper
citation or the use of quotation marks, and that this constituted plagiarism. 15 The IC "concluded
that [the Subject] committed plagiarism by not appropriately citing several passages in the
background section of the proposal. The committee considered the mitigating factor that the
passages were-descriptions with some citations." 16




10
   Subject interview, IC report, attachment 6, page 1 (Tab 4).
II Cover letter of February 25, 2010, page 1 (Tab 4). Our referral letter states that the university investigation
should include consideration of anyone determined to have committed plagiarism.
12
   Tab 5.
13
   Clarification letter of April29, 2010, page 1 (Tab 6).
14
   Clarification letter of April29, 2010, page 2 (Tab 6).
15
   IC report, page 4 (Tab 4).
16
   IC report, pages 4-5 (Tab 4).




                                                                                                                     4
CONFIDENTIAL                                                                                     CONFIDENTIAL


         The IC examined each of fourteen instances of copied text in the Subject's proposal as
identified in the OIG referral, 17 and assigned a seriousness rating to each. 18 Twelve of the
instances were assigned a seriousness rating of"low," and two were assigned a rating of"low-
medium." Instances of"low seriousness" were described as "descriptive material" or as material
copied from a guidebook or website, and not copied from "an original scholarly work." 19 The
same descriptions are used, however, for those two instances rated of"low-medium" seriousness.
We therefore asked the University to clarify how the seriousness was rated. 20 The University
replied:

        In each instance of matching text, the committee used their collective knowledge
        of accepted norms to assess what kind of material was copied and what would
        have been the appropriate way to cite the reference. The committee determined,
        based on this careful review, th~ copied from websites
        was a description of the g e n e r a l - Because the copied
        text did not represent original ideas of scholarship and in many instances included
        references, the committee considered these as less serious deviations from normal
        citation practices, rather than serious academic misconduct.l2IJ

       In the cover letter to the IC report, the Vice President for Research stated: "The
University concluded that while the [Subject's] actions meet the NSF's definition of plagiarism,
the University believes his actions do not constitute "scientific or academic misconduct," under
University policy because there is no evidence that the plagiarism was intentional. The
University concluded that the [Subject] was careless in not checking the references, but as
evidenced by the citation accompanying the borrowed text, he did not intend to represent the
composition as his own." 22

          We asked the University for clarification of the "careless" level of intent, and subsequent
lack of a finding, since University policy does not specifically address intent. The University
     . d :23
rep 11e

        The University's Policy Statement on the Integrity of Scholarship does not specifically
        include a requirement of the level of intent in the definition of plagiarism but it does
        invoke the NSF's policy for cases of allegation of misconduct involving NSF, and, as
        noted in the committee's report, the committee concluded that [the Subject's] actions
        were careless.[ 241



17
    The IC examined only instances of copied text identified in the referral letter.
18
    The instances and the ratings are tabulated and attached to the IC report (Attachment 8b, Tab 4).
19
    Attachment 8b, IC Report (Tab 4).
20
    Tab 5.
21
    Clarification letter of April 29, 2010, page 4 (Tab 6).
22
   Cover letter of February 25, 2010, page 1 (Tab 4).
23
   Clarification letter of April29, 2010, page 4 (Tab 6).
24
    Intent, however, is not part ofNSF's definition of plagiarism. Rather, a level of intent (reckless, knowing, or
intentional) is required under NSF policy for a finding of research misconduct, given that plagiarism was committed.




                                                                                                                  5
CONFIDENTIAL                                                                                      CONFIDENTIAL


       In summary, the IC concluded that the Subject was responsible for plagiarism in Proposal
A. The IC and the University concluded that the Subject's actions were careless, and the
University asserted that this level of intent precludes a finding of academic misconduct.

       The IC examined a sample of other NSF proposals 25 and papers authored by the Subject
and the lab manager in the past five years (the Subject's CV is included at Tab 7, along with the
Subject's NSF proposal submission history). A summary of its results and evaluation was
provided with the report. 2 6 The IC report stated that "The committee members agreed that there
was no pattern of plagiarism found in this review.'m The IC also examined four publications of
the Subject and the lab manager, and identified only matches to text previously authored by the
Subject. 28 The IC further concluded 29 that the Subject's actions "have no im~act on the research
record since the copied information already exists in numerous publications." 0

       The Subject, in his comments on the draft ofthe IC report/ 1 re-asserted that 1) the lab
manager was aware that the text materials were to be used in the NSF proposal, and 2) he erred
only "in not recognizing material originating from a subordinate as being copied information
without proper attribution."

        The University Vice President took the following actions recommended by the IC: 1) the
Subject will" 1) receive a letter from the Vice President for Research expressing the university's
concern, 2) that, for three years, the Subject's new proposals for sponsored projects be
accompanied by a personal certification that these proposals do not contain plagiarism, and that
3) the Subject be required to review with his graduate students and other laboratory members
best practices for citing the work of others." 32 The University took no action with respect to the
lab manager.

                                                OIG's Investigation

        Upon receipt of the University's investigation report, we invited the Subject and the lab
manager to comment. We received no response. Because the lab manager was a potential
subject, we wrote separately to clarify and confirm his responses to the University IC.33 The lab
manager continued to assert that he did not know the materials he provided were to be used in an




25
    The Subject's CV (Tab 7) does not list any awards from Federal agencies other than NSF.
26
    IC report, Attachment 5 (Tab 4).
27
    IC Report, page 2 (Tab 4).
28
    A self-match occurs when the plagiarism detection software matches an examined text with source text already
in the database, but the source text is composed by the same author.
29
    IC Report, page 4 (Tab 4).
30
    In fact, most of the unattributed copied text uniquely appears in scholarly publications by its original authors.
The text is in some cases excerpted on web sites, which provide appropriate citation and reference to the original
~ublication.
 1
     IC Report, Appendix 9 (Tab 4).
32
     Cover letter of February 25, 2010, page 2 (Tab 4).
33
     Our letter to the lab manager and his response are at Tab 9.



                                                                                                                   6
CONFIDENTIAL                                                                                       CONFIDENTIAL


NSF proposal, and that he did not review the proposal before submission.34 He also asserted that
he provided a list of references along with the material he provided the Subject.

        The conclusions of the IC report and subsequent actions by the University are not .
consistent with the facts established during the investigation. The IC concluded that the
unattributed copied text in the Subject's Proposal A was not adequately cited or referenced, that
this lack ofgroper attribution constituted plagiarism, and that the Subject was responsible for the
plagiarism. 5 The IC and the University characterized multiple instances of plagiarism in the
referred proposal as instances of low seriousness, and asserted that the Subject was merely
careless in not checking the original references. 36 Despite the IC description of the Subject's
actions as of low seriousness, University policy37 for faculty members states that "Misconduct in
the pursuit of scholarship and research includes at least the following major offenses (emphasis
added). . . 2. Plagiarism: taking credit for someone else's work and ideas, stealing others'
results or methods, copying the writing of others without proper acknowledgment, or otherwise
falsely taking credit for the work or ideas of another."

        In describing the copied text, the University asserted that the Subject did not "intend to
represent the composition as his own." 38 We conclude, however, that because the unattributed
copied text in the Subject's Proposal A does not appear within quotation marks, and lacks
references, and because the lab manager is not listed as an author on the proposal, the Subject
clearly represented the text in the proposal as his own composition.




~as left the University and accepted a                            ·

   The IC investigation confirmed that the lab manager plagiarized from source documents into the materials
provided the Subject. The Subject's actions can be viewed either as plagiarism of the text provided by the lab
manager, or from the original authors of the source documents.
36
   Examination of the annotated                                 that in most instances ofunattributed copied text,
                                                      absent. Neither the IC nor the university is specific about just




                                                                                                                     7
CONFIDENTIAL                                                                                     CONFIDENTIAL




                                                                                                        39
        We examined a sample of the Subject's past and current NSF proposals (Tab 7)
different from those examined by the IC. A summary of copied text found in those NSF
proposals 40 is here:

        Proposal                   Lines of copied text                Sources

       A (FY 09) 41                            90               5 publications, 4 web documents
       B (FY 06)                               35               2 publications
       C (FY 08)                               10               2 publications


        None of the copied text in the Subject's Proposals A-C appears within quotation marks,
or is otherwise differentiated, and embedded references 42 appear in some copied passages of text.
In some instances, the citation and the reference is missing, while in others the citation appears
for the general ideas described, but not for the particular copied text. The IC concluded for
Proposal A, and we conclude for Proposals A-C, that the Subject's copying of text constitutes
plagiarism.
                                        OIG's Assessment

       A finding of research misconduct by NSF requires that: 1) there be a significant
departure from accepted practices of the relevant research community, that 2) the research
misconduct be committed intentionally, or knowingly, or recklessly, and that 3) the allegation be
proved by a preponderance of the evidence. 43
                                               Acts

        The Subject plagiarized approximately 135 lines of text into 3 NSF proposals, without the
use of quotation marks or other differentiation, and often without citation to the source of the
duplicated material. In offering text written by others as his own words, and in providing that
text to NSF and NSF reviewers as emblematic of his own understanding of the research field, the
Subject significantly departed from accepted standards of his research community. The Subject
served as chair ofhis University department, and as an officer of a professional organization, and
is surely aware of the standards of scholarship. 44



39
   Proposals Band C were not included in the IC's review of the Subject's proposals, although the IC examined
other proposals
40




           text in Proposal A was           to the               mvestigation.
42
   An embedded reference is a citation to a reference appearing within the stretch of copied text. The placement and
the reference are identical in both the source and the proposal.
43
   45 C.F.R. §689.2(c).
44
   The Subject's Curriculum Vita (CV) is included at Tab 7. The CV reflects the Subject's current position as Dean
at another university.



                                                                                                                  8
CONFIDENTIAL                                                                          CONFIDENTIAL




        The Subject asserted that he asked for background material from his laboratory manager
as part of the preparation of Proposal A, and may have been unaware that text provided by the
lab manager was plagiarized from other authors. However, the Subject recklessly incorporated
text provided by the lab manager into his proposal, and did so without providing attribution to
his lab manager or the original sources. Further, the lab manger asserted that a list of references
was provided to the Subject. We conclude that the Subject's intent was reckless.

                                             Standard of Proof

       The IC concluded, by a preponderance of the evidence, that the Subject's actions in
copying text into Proposal A constituted plagiarism, and represented a significant departure from
accepted practices. We agree with the IC that the Subject's plagiarism was a significant
departure from accepted practices.

        A preponderance of the evidence proves that the Subject reckless plagiarism was reckless
was a significant departure from accepted practices. Therefore, we conclude that the Subject's
actions constitute research misconduct.

                                    OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: (1) how serious the misconduct was; (2) the degree to which the misconduct was
knowing, intentional, or reckless; (3) whether it was an isolated event or part of a pattern;
(4) whether it had a significant impact on the research record, research subjects, other
researchers, institutions or the public welfare; and (5) other relevant circumstances. 45

                                                  Seriousness

       The Subject copied approximately 135 lines of text from 13 different sources into 3 NSF
proposals. In so doing, the Subject presented' that text to NSF proposal reviewers as his own.
The NSF definition ofplagiarism is clear: 46 "Plagiarism means the appropriation of another
person's ideas, processes, results or words without giving appropriate credit." The NSF Grant
Proposal Guide states:

          NSF expects strict adherence to the rules of proper scholarship and attribution.
          The responsibility for proper scholarship and attribution rests with the authors of a
          proposal; all parts of the proposal should be prepared with equal care for this
          concern. Authors other than the PI (or any co-PI) should be named and
          acknowledged. 47 [The proposal] should present the merits of the proposed project



45   45 C.F.R. §68g.3(b).
46   45 C.F.R. Part 68g.
47
     NSF Grant Proposal Guide, January 2010, page I-3.




                                                                                                      9
CONFIDENTIAL                                                                                    CONFIDENTIAL



        clearly and should be prepared with the care and thoroughness of a paper
        submitted for publication.[ 48 l

        The IC and the University concluded that the Subject's actions were oflow
seriousness "because the copied text did not represent original ideas of scholarship and in
many instances included references." 49 We disagree with this assertion and believe it is
inconsistent with standards of scholarship that are expected for an NSF proposal.

                                  Degree to which the Act was Reckless

        The Subject solicited material from the lab manager to include in NSF Proposal A, and
then included that material without proper attribution in the first submission and also in the
resubmission of the proposal. The potential mitigating value of the Subject's response that the
lab manager did not properly understand plagiarism is greatly diminished by the fact that
unattributed copied text appears in the Subject's other proposals submitted to NSF. 50 We
conclude that the Subject's actions are demonstrably reckless.

                                                    Pattern

       The University IC concluded that there was no pattern of plagiarism by the Subject.
However, our investigation showed that additional plagiarized text appears in two additional
NSF proposalsS 1 on which the subject is sole PI. A pattern of plagiarism by the Subject in NSF
proposals is evident.

                                      Impact on the Research Record

       NSF awarded Proposal A; the Subject's two other proposals B-C in which copied text
appeared were declined. Neither the individual reviews nor the review apalysis of Proposal A
comment specifically on portions of the proposal that were plagiarized. We find no evidence to
suggest that these portions of the proposal influenced the decision to fund the proposal.

                                                 Other [actors

        We cannot identify any other relevant aggravating or mitigating factors.




48
   NSF Grant Proposal Guide, January 2010, page 1-3.
49
   Cover letter to the IC report (Tab 4).
50
   The inquiry letter to the Subject asks if plagiarized text appears in any other proposals submitted to NSF. The
Subject did not provide an answer to the question.
51
   Proposals Band C.




                                                                                                               10
CONFIDENTIAL                                                                                       CONFIDENTIAL


                            Subject's comments on the draft Report of Investigation

        We provided a draft copy ofthis report of investigation to the Subject for comments. In
his response (Tab 10), the Subject accepted responsibility for the material in his proposals, and
repeated his assertion that his laboratory manager knowingly provided the copied material in one
of his NSF proposals. The Subject did not provide any information about copied material
appearing in his other proposals submitted to NSF. The Subject included with his response a
copy of a syllabus from a course he taught in 2006 that included a guest lecture on responsible
use of the scientific literature. The Subject requested that we omit from our recommendations 1)
required assurances from his employer and 2) required attendance at a course in the responsible
conduct of research.

       The Subject did not dispute any of the facts established in our investigation. We
concluded that our recommendations for certifications and assurances and for attending an ethics
course remain appropriate and sufficient to protect NSF's interests.


                                                Recommendation

          We recommend that NSF:

     •    Make a finding of research misconduct against the Subject;
     •    Send a letter of reprimand to the Subject; 52
     •    Require that the Subject submit certifications to AlGI, 53 NSF OIG for two years
          that any submissions to NSF do not contain falsified, fabricated, or plagiarized material; 54
     •    Require that the Subject's employer submit assurances to AlGI, NSF OIG for two years
          that any submissions to NSF do not contain falsified, fabricated, or plagiarized material; 55
      •   Prohibit the Subject fr()m serving as a peer reviewer ofNSF proposals for two years; 56
          and
      •   Require the Subject to provide certification to NSF OIG of attendance at a course in
          responsible conduct of research within 1 year of the finding of research misconduct. 57




52
     A letter of reprimand is a Group I action, 45 C.F.R. § 689.3(a)(l)(i).
53
     The AlGI is the Assistant Inspector General for Investigations.
54
     A certification from the subject is analogous to listed Group I actions, 45 C.F .R. § 689.3(a)(l).
55
     Assurance from the subject's employer is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(l).
56
     Prohibition from service as a reviewer for NSF is a Group III action, 45 C.F.R. § 689.3(a)(3)(ii).
57
     A course requirement is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(l).




                                                                                                              11
